<html>
<title> - S. Hrg. 109-634 FEDERAL AGENCIES AND CONFERENCE SPENDING</title>
<body><pre>[Senate Hearing 109-634]
[From the U.S. Government Printing Office]



 
                                                        S. Hrg. 109-634

                FEDERAL AGENCIES AND CONFERENCE SPENDING

=======================================================================

                                HEARING

                               before the

                FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT
                     INFORMATION, AND INTERNATIONAL
                         SECURITY SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 7, 2006

                               __________


       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs




                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

27-027 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
   Joyce A. Rechtschaffen, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT INFORMATION, AND INTERNATIONAL 
                         SECURITY SUBCOMMITTEE

                     TOM COBURN, Oklahoma, Chairman
TED STEVENS, Alaska                  THOMAS CARPER, Delaware
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
LINCOLN D. CHAFEE, Rhode Island      DANIEL K. AKAKA, Hawaii
ROBERT F. BENNETT, Utah              MARK DAYTON, Minnesota
PETE V. DOMENICI, New Mexico         FRANK LAUTENBERG, New Jersey
JOHN W. WARNER, Virginia

                      Katy French, Staff Director
                 Sheila Murphy, Minority Staff Director
            John Kilvington, Minority Deputy Staff Director
                       Liz Scranton, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Coburn...............................................     1
    Senator Carper...............................................     4
    Senator Akaka................................................    26

                               WITNESSES
                       Tuesday, February 7, 2006

Scott H. Evertz, Former Director, White House Office of National 
  AIDS Policy....................................................     6
Charles Johnson, Assistant Secretary for Budget, Technology and 
  Finance, U.S. Department of Health and Human Services..........    13
Sid Kaplan, Acting Chief Financial Officer, U.S. Department of 
  State..........................................................    14
James M. Martin, Acting Chief Financial Officer, U.S. Department 
  of Housing and Urban Development...............................    16
Michael W.S. Ryan, Deputy Chief Financial Officer, U.S. 
  Environmental Protection Agency................................    18

                     Alphabetical List of Witnesses

Evertz, Scott H.:
    Testimony....................................................     6
    Prepared statement...........................................    32
Johnson, Charles:
    Testimony....................................................    13
    Prepared statement with an attachment........................    37
Kaplan, Sid:
    Testimony....................................................    14
    Prepared statement...........................................    48
Martin, James M.:
    Testimony....................................................    16
    Prepared statement with an attachment........................    53
Ryan, Michael W.S.:
    Testimony....................................................    18
    Prepared statement with an attachment........................    60

                                APPENDIX

Charts submitted by Senator Coburn:
    ``What Federal Employees Spend While Attending A Domestic 
      Conference''...............................................    29
    ``What Federal Employees Spend While Attending A Foreign 
      Conference''...............................................    30
    ``Federal Agencies and Conference Spending 2000-2005.........    31
Questions and Responses for the Record from:
    Mr. Johnson..................................................    65
    Mr. Kaplan...................................................    75
    Mr. Martin with attachments..................................    84
    Mr. Ryan with attachments....................................    93


                FEDERAL AGENCIES AND CONFERENCE SPENDING

                              ----------                              


                       TUESDAY, FEBRUARY 7, 2006

                                       U.S. Senate,
            Subcommittee on Federal Financial Management,  
         Government Information, and International Security
                            of the Committee on Homeland Security  
                                          and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Tom Coburn, 
Chairman of the Subcommittee, presiding.
    Present: Senators Coburn, Carper, and Akaka.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. The Federal Financial Management, 
Government Information and International Security Subcommittee 
of the Homeland Security Governmental Affairs Committee will 
come to order.
    I want to thank all our guests for being here. I've asked 
Mr. Evertz to go first because I thought it appropriate insight 
for somebody who's worked within an agency for the agencies to 
hear what somebody on the ground feels about this. And we've 
asked him to testify first, and I would appreciate your 
indulgence as we do that. I know your time is valuable, and 
it's not meant to take your time from your obligations.
    One of our key goals is to reestablish accountability and 
transparency within the Federal Government. And that's what 
drives the oversight work of this Subcommittee. Unaccountable 
spending of tax dollars is an abuse of power. It also is an 
abuse of the heritage of this country, where we've had a 
heritage of sacrifice for the next generation so their economic 
opportunities will be appropriate.
    When Congress exercises its constitutionally-derived power 
by levying taxes, but then fails to insist upon accountability, 
we deprive Americans of the checks and balances to which they 
are entitled.
    Last summer, I sent a letter to every Federal agency 
requesting a full accounting of conference spending and 
participation from 2000 to 2005. Some responses were very 
thorough. Some were indecipherable. And some didn't show up at 
all. And that is unacceptable. And it belies a greater problem 
within the Federal Government, that of a lack of availability 
of numbers to those who are in charge of making decisions based 
on those numbers.
    The reports are astounding. Since the year 2000, we've 
spent $1.4 billion on conferences, including both underwriting 
conferences as well as sending Federal employees to 
conferences. Between 2000 and 2005, the total Federal 
conference spending increased 70 percent.
    What amazes me even more is this increase occurred during a 
challenging time for our country, a time when our priorities 
should have been dramatically realigned. We are at war. We face 
tremendous natural disasters. We face unfettered growth in 
unfunded liabilities for our entitlement programs that are 
nearly $60 trillion.
    Historically, presidents have shifted priorities under 
these conditions. During a time of great challenge and war, 
President Roosevelt cut non-defense spending by 20 percent. 
Several years later, President Truman cut non-military spending 
by 28 percent.
    Things are different, however, today. For example, HUD 
increased conference spending a mind-blowing 340 percent over a 
4-year period. Every other agency increased their conference 
spending significantly. I find that the hearing's purpose today 
is to find out the accountability and the reasons behind that.
    We're going to hear testimony today arguing that because 
agency budgets are increasing, spending on meetings and travel 
must naturally increase proportionately. I would argue just the 
opposite. As discretionary and mandatory spending increase at a 
rate that is going to undermine our children and our 
grandchildren, it's all the more important to rein in spending 
on anything less than truly essential meetings. Increased 
budgets make these expenditures less defensible, not moreso.
    There's a disconnect when conference attendance and 
spending are increasing at the exact time technology is 
dramatically reducing the need for travel and conferencing. In 
the modern telecommunications era, it is unnecessary to spend 
time and resources to finance so many conferences. 
Teleconferences and video conferencing, for example, can save 
money while allowing the same type of interaction and 
information sharing at a mere fraction of the cost. I'm not 
here to get into the weeds or details of specific conferences, 
but here are some examples that caught my eye.
    In 2004, at least 59 conferences around the world were 
attended by HHS delegations of greater than 100 Federal 
employees, including over 1,000 attendees to sunny Orlando. In 
2002, HHS sent 236 employees to a conference in Barcelona, 
Spain, spending $3.6 million on one single conference. 
Department of Education sent 158 employees to a conference in 
New Orleans.
    Many conferences are set in beach, resort, casino, or 
European tourist destinations, such as Miami, Paris, Palm 
Springs, Berlin, Atlantic City, Rio, or Las Vegas where hotel 
rates are likely to be high and extracurricular temptation to 
skip the so-called vital conference sessions are even higher.
    HUD participated in the Sacramento Home Ownership Fair, not 
in Sacramento or even in California, but in Honolulu, Hawaii. 
HUD also sent three people to Los Cabos, Mexico for the 
conference about U.S. real estate and urban economics. EPA was 
the primary sponsor of a national conference in that low-cost 
destination, Honolulu.
    One witness today will share his conference experiences as 
a recent Federal official who worked both at the White House 
and at HHS. He will demonstrate great courage. He reports that 
there are few internal controls on conference attendance or 
spending, and questions the cost-effectiveness of the array of 
conferences which many deride as ``spring break.''
    Ultimately, some of the problems could be avoided simply by 
increasing transparency. My hope is that this hearing is the 
beginning of that process. And I'm announcing today we'll have 
a follow-up hearing 4 months from today to see what process has 
been done in terms of accountability, transparency, and follow-
up from the results of this hearing.
    There should be a formal vetting and justification process 
for conference requests. I noted in the testimony that some 
agencies have put that in. And this is especially true when 
technology allows for teleconferencing and the use of internet 
to exchange information. Every department should document 
conference spending and attendance online in the interest of 
transparency.
    One outcome of our investigation was the near-unanimous 
complaint from all the agencies about how hard it was to answer 
the very simple questions that we asked. Most responses came 
back with substantive gaps and missing data. Even these patchy 
and incomplete responses arrived months after the requested 
delivery date, which meant you had to do hard work to find the 
information rather than having the information at your 
fingertips.
    The Commerce Department tells my staff that the response is 
in the mail. We've not received it yet. The Department of 
Veterans Affairs and the Department of the Interior submitted 
incomplete reports. Some of you just provided 1 year's worth of 
conference details, when you were asked for 5 years.
    This difficulty responding to fairly simple questions 
highlights how poorly we track expenditures down to the dollar. 
Yet that is exactly the appropriate and reasonable expectation 
of taxpayers.
    I do want to commend an exception to the rule. The 
Department of Energy submitted a highly detailed conference 
report, and actually tallied individual conference costs from 
2001 to 2005. They provided a copy of their regulations 
regarding conference approval and travel.
    Every year in their report to Congress, they detail 
conference participation and support for the previous year and 
the coming year's estimates. They require personnel to explore 
off-season travel costs, discourage resort and recreational 
destinations, and they consider ``the potential for any adverse 
appearance associated with DOE participation.'' Although DOE, 
like other agencies, has increased their conference spending in 
recent years, at least they have internal controls regarding 
this spending.
    As we go forward, I would encourage agencies to be sure 
that every conference attended by Federal employees passes the 
following tests:
    Does the conference help further the Department's mission?
    Could the information be shared through a teleconference or 
the internet?
    Is the location appropriate and justified?
    Is the number of employees attending justified?
    Does participation in the conference validate or endorse 
ideas or values harmful to American interests?
    Does the conference give a platform to ideas and panelists 
who undermine American interests?
    Is the conference a wise use of tax dollars when we have an 
$8.1 trillion debt?
    Every conference should be readily defensible, on its face, 
to regular Americans in terms of topic, location, and 
participants. It also should be available to them online on how 
we spend that money. It's time to scale back. It's time to make 
tough decisions. It's time to set priorities. I look forward to 
our dialogue.
    I would also say that Senator Carper and I are dedicated to 
doing the oversight that's necessary to help you accomplish 
what you want to accomplish. This isn't a beating up session. 
It's not intended to be--we know that you have great 
intentions. We also know you're overwhelmed. Our goal is to 
help you build the process whereby you can make great decisions 
for the American taxpayer.
    It gives me great privilege, after hearing his statement on 
the floor on the asbestos bill, to recognize my contributor in 
arms in tackling the financial problems of our country, Senator 
Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you, Mr. Chairman. I'm honored to be 
here with you, and look forward to this hearing. I thought we 
had a pretty good one--was it yesterday?
    Senator Coburn. In Chicago.
    Senator Carper. A field hearing in Chicago. And I would 
just add to what the Chairman has said, if I could. When you 
have a budget deficit as large as the one we have and one that 
it appears is going to be with us for some time if we continue 
to do what we've been doing, we need to look at every part of 
our budget.
    We need to look at the taxes that were not collected that 
are owed. We need to look at the improper payments that are 
being made, especially overpayments. We need to look at 
entitlement programs to make sure that they're actually going 
to the people who need the help the most. And we need to look 
at all parts of our discretionary budgets, defense and non-
defense.
    And yesterday we were looking, in Chicago, at the 
management of Federal property. One of the questions that we 
asked of our witnesses was: What do we need to be doing in the 
Congress, Executive Branch, Legislative Branch? What do we need 
to be doing on real property management that would enable you 
to do a better job of managing your property--have fewer vacant 
buildings, less unused space, less under-utilized space, less 
land that frankly is serving no useful purpose. And they 
actually shared with us some ideas of things that we can do to 
help them.
    And so we weren't there just to put them on the spot or put 
a spotlight on them in saying, what you're doing is bad or 
unlawful or anything like that. What we were looking for was to 
commend those who were doing a good job--several were--and to 
say to those that weren't, what can we learn from the people 
who are doing an especially good job? And so I thought it was 
most constructive. And my hope is that this will be as well.
    I would like to say in addition to that, the Chairman is 
right. I think there's value, frankly, in pulling people 
together to meet face to face; not all the time, but there's 
value in doing that. And 10 or 15 years ago, we couldn't do 
that electronically, but today we can.
    And I was in a briefing in the White House not too long 
ago--I think it was last month, Mr. Chairman--and we were 
meeting with the President and Vice President, Secretary of 
State, Secretary of Defense, Chairman of the Joint Chiefs of 
Staff. And we had about 12 of our colleagues around the table.
    And joining us live in color from Baghdad were Dr. 
Khalilzad, our Ambassador, and General George Casey, our 
military leader in Iraq. And the idea of having us all go over 
to meet or for them to come over here and to meet just makes no 
sense. But we were able to do it using live video, and that's 
the sort of thing that we need to be doing more of.
    The other thing I would say, in addition to finding out 
what meetings, what conferences, can just as easily be held by 
video, or some of the stuff we do--I'm sure you do it, too--we 
do it by speakerphone, something as rudimentary as just doing 
it on the phone with a bunch of people gathered around these 
different microphones, and doing it that way.
    The other thing is we find that we can save a lot of money. 
And we do some travel that's government-related. We also do 
travel that's personal, back and forth, maybe to our States. 
And we do travel that is political, and as we go around the 
country for different events.
    And what we've learned to do is to try to figure out how to 
handle all that travel, to do all that travel, more cost-
effectively. I'll just give you a recent example. By booking 
flights a couple weeks early before the flight as opposed to a 
couple of days before the flight, you can save more than 50 or 
75 percent of the cost of a ticket.
    People in my neck of the woods, in Delaware, historically 
went up to Philadelphia to catch flights to go to places. And 
they found that if they were to either drive to BWI, Baltimore-
Washington International, or take the train to BWI, get off at 
BWI, and take a flight out of BWI, they could save a ton of 
money, and catch flights to take them where they needed to go 
by airplane for a lot less dollars.
    In fact, we found that people could actually pay for their 
train ticket from Wilmington to BWI, get the airline, fly the 
airline out of BWI, fly back into BWI, take the train and go 
home, and save a lot of money, hundreds of dollars, in the 
meantime.
    So what I hope that we talk about today is not just is it 
important to bring people together for a conference, but on 
those occasions when it is, are there other things that we can 
be doing when we say that meeting has to take place--maybe not 
in Mexico, maybe not in Hawaii, maybe not even in Orlando; 
maybe in Delaware, maybe in Tulsa, where I've been before--that 
we find a really cost-effective, efficient way to get there and 
come home.
    Thank you.
    Chairman Coburn. Thank you.
    Just to summarize why we are diligent, this last year we 
added a half a trillion dollars to the national debt. And I 
know how numbers are manipulated in Congress, and I know how 
they're manipulated by the Administration. And the deficit 
doesn't reflect the true cost of what we're doing to our kids.
    I also would note that in the year 2000, $88 million was 
spent on travel and conferences, and in the year 2005, $225 
million was spent on travel and conferences. No American in 
this country has had that kind of increase in their travel 
budgets or conferencing budgets. You can't find a firm that's 
done it. You can't find an individual organization. But the 
government has somehow seen fit that's applicable to us.
    And the whole purpose of this hearing today is to look at 
it, to cause you all to look at it, to be better stewards, and 
for us to make sure you know we're going to continue to look at 
it. And it's not just travel budgets. As many of you know, this 
Subcommittee is looking at everything.
    We're going to have 42 hearings this year on oversighting 
expenditures within the Federal Government with the hope of 
sharpening our ability to control the expenses. Every dollar 
that we spend on a conference that could be spent saving 
somebody's life with HIV or treating malaria or treating TB or 
drilling a water well for somebody in Africa is real dollars 
making a real difference in peoples' lives. So the purpose for 
us doing this is noble, and it's not to cast aspersions or to 
say you care. We know you care. What we want to do is help 
sharpen the focus.
    Let me introduce to you Scott Evertz. He's the Vice 
President for International Affairs for OraSure Technologies. 
Mr. Evertz I know well. I've worked with him in the past when I 
was out of government. He works with lawmakers and implementing 
partners of the President's Emergency Plan for AIDS Relief and 
with the Global Fund to Fight AIDS, Tuberculosis and Malaria in 
Geneva.
    He previously served as the Special Assistant to the 
Secretary of Global AIDS Initiatives, where he developed and 
implemented HHS strategy to combat HIV/AIDS. He also is the 
former Director of the White House Office of National AIDS 
Policy. Your full testimony, Mr. Evertz, will be made a part of 
the record. You are recognized, and if you would, please let us 
hear from you.

 TESTIMONY OF SCOTT H. EVERTZ,\1\ FORMER DIRECTOR, WHITE HOUSE 
      OFFICE OF NATIONAL AIDS POLICY, VICE PRESIDENT FOR 
         INTERNATIONAL AFFAIRS FOR ORASURE TECHNOLOGIES

    Mr. Evertz. Thank you, Mr. Chairman. Good afternoon, and 
good afternoon, Senator Carper.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Evertz appears in the Appendix on 
page 32.
---------------------------------------------------------------------------
    Senator Ranking Member, you stole my line. I was going to 
start by suggesting that conferences be held in Dover and Tulsa 
henceforth and hereafter, to gain favor with the Subcommittee.
    The perspective I bring here is, as Chairman Coburn 
suggests, as a former government employee, political appointee 
in the Bush Administration. Senator Coburn, you mentioned our 
time together, when you served as co-chair of PACHA, the 
President's Advisory Council on HIV and AIDS. I enjoyed our 
work together and want to thank you again for your service in 
that capacity.
    As you suggest, from July 2002 to April 2005, I served as 
Special Assistant to Secretary Thompson on global HIV/AIDS 
issues. And it was in this context that I observed the issues 
that your Subcommittee is seeking to address. What I discovered 
and witnessed was an attitude of entitlement among certain 
officials in terms of attendance at conferences. And I would 
suggest a downright arrogance when attendance at those 
conferences was challenged by higher-ups in the agency.
    It appeared to me personally that there was a limitless 
travel budget, and that one could pick and choose which of 
these conferences to attend. And as you suggest subtly, and I 
would suggest less subtly, there's a perverse incentive to pick 
Los Cabos over a conference that may be held in Tulsa, with all 
due respect.
    During my tenure in the Administration, I discovered that 
these conferences and meetings were often a waste of time and 
money, and that there were other technologies that could enable 
us to access the good information that was being shared at 
these conferences.
    During my tenure at the White House and at HHS, I never 
attended the International AIDS Conference held in Barcelona 
and then subsequently in Bangkok, Thailand while I was with the 
Administration. During that period, though, I would note that I 
and others in the Administration developed the architecture for 
the President's Emergency Plan for AIDS Relief and the Global 
Fund to Fight AIDS, Tuberculosis and Malaria without the 
benefit of having attended those conferences.
    We did so, however, in close consultation with 
multinational organizations and using many of the technologies 
to which you refer. So clearly, it is possible to address the 
pandemics that you reference--AIDS, tuberculosis, and malaria--
without attending costly conferences.
    The individual who became my boss, Secretary Thompson, 
attended the Barcelona conference in 2002, and as many of you 
will remember, was not able to engage in the so-called exchange 
of ideas that occurs at these conferences because he was 
shouted down. He was shouted down, in fact, sir, by many 
individuals whose attendance was paid for by the U.S. 
Government.
    So when you reference figures around conferences, not only 
are you talking about Federal Government employees that are 
attending those conferences, but others who are on scholarships 
from one of the many agencies, or whose NGO is supported by the 
United States. I can highlight examples during the question-
and-answer session.
    But it was always truly amazing to me that we were funding 
nongovernmental organizations and literally enabling them to 
yell at Federal officials at conferences. I was one of those 
officials in one of my first appearances in Atlanta at a CDC 
prevention conference, and it was all grantees in the audience. 
And we were simply there to talk and to exchange ideas.
    Even with the United States sending more than 200 attendees 
to the Bangkok conference which followed the Barcelona 
conference, critics of our Administration bemoaned the severe 
restrictions being placed on attendance. And quite frankly, 
sir, there were many of us, and still are, in the 
Administration who did not consider 200 individuals severe 
restrictions.
    A noted journalist and now Senior Fellow for Global Health 
at the Council of Foreign Relations first criticized the 
Administration for limiting attendance at the Bangkok 
conference, but having attended the conference herself, 
summarized what she thought to be a less than useful venture by 
saying, ``To be blunt, top HIV laboratory researchers simply 
don't come to the international gathering any more, finding it 
irrelevant.''
    The cost of that conference was nearly $17 million, 
according to organizers. But I would argue there are ancillary 
costs and expenditures that, beyond the scope of what we're 
talking about today, are outrageous if you care about fighting 
HIV/AIDS.
    The pharmaceutical companies and others who have a vested 
interest in the HIV/AIDS industry sponsor lavish cocktail 
parties and events that cost into the millions. So if you truly 
were to look at the cost of a conference such as that, it's 
well above the $17 million that's in my testimony and that 
you've referenced.
    Now, I see on the poster here, life-saving drugs for 5,000 
individuals living with HIV for an entire year is what HHS 
could have paid for with conference costs. Let me suggest 
something else. Optimal AIDS combination therapy, which has 
definitely lowered in price, but optimal therapy costs up to 
$12,000 per year per patient. That's a very high number, 
depending upon the regimen and the payor. However, even at the 
optimal cost, if you take the cost of the Bangkok conference, 
we could have put 1,500 additional individuals living with HIV/
AIDS on ARVs.
    Perhaps more alarming is the fact that we could administer 
about 3.4 million doses of Nevirapine for the cost of this 
conference, which as you know, sir, prevents the transmission 
of HIV from mother to child.
    Now, these conferences have a value, so lest anyone 
conclude that I'm suggesting they be discontinued, I'm not. But 
we certainly need to consider, as you suggest, sir, in an era 
of budget deficits, and in an era when there are waiting lists 
in this country for the AIDS Drug Assistance Program, which is 
part of the Ryan White Care Act, and increasingly there are 
countries, even in the PEPFAR initiative, that are having 
trouble getting as many individuals on ARVs as the President 
would like because of budget constraints, that we look at ways 
to do this differently and we look at what some--and you 
mentioned in your opening statement, sir, conferencing that's 
spring break, in essence.
    Now, I'm happy in the question and answers to provide 
examples. But let me give you one example of a trip that I went 
on that would not be captured--so this is illustrative because 
this would not be captured through any of the numbers that 
we're talking about today, and that is travel at the invitation 
of a nongovernmental organization.
    I would suggest to you that in any given month, I could 
have chosen one or two opportunities to be the guest of a 
nongovernmental organization in my capacity at the White House 
and at HHS. But as you know, it was that Federal agency, the 
Executive Office of the President or HHS, that had to foot the 
bill.
    I attended one of those trips, and if I may digress for 
just a second, we were in a remote area in the bush in South 
Africa where they were testing individuals for HIV. These 
incredible volunteers--at this point they were using the finger 
prick device, not the oral HIV tests that my company markets 
and sells--but they were using that device and they were 
testing individuals for HIV.
    And so we said, well, walk us through this process. Test 
one of us and then tell us what you do. And they started by 
explaining how difficult it was for individuals to get to this 
testing site because it was--no one lives close to anyone in 
this part of South Africa. But individuals would take the time. 
They would go to this testing site which--I loosely refer to as 
a clinic--be tested, and this was before the era of the rapid 
test or as many rapid tests, and these individuals had to come 
back to get their results.
    Many of them did. And of course, then we said, well, then 
what do you do? And the young woman who does the counseling and 
testing said, ``Well, we tell them their results, and if 
they're positive, we talk about nutrition and ways to protect 
their partners and their family.'' And she kind of lowered her 
head. And she said, ``But we can't give them treatment because 
we have no treatment.''
    And it was at that point that the irony of a whole group of 
us standing there from the United States, most all of us from 
the U.S. Government, some of your colleagues from the House, 
and had literally no way to help these individuals.
    Many of us went back and we worked diligently on the PEPFAR 
initiative. But my point is that's inexcusable. And it 
literally reached--it sunk home with me because on this trip, 
one of our leisure activities was a safari, and that I had been 
given the opportunity to attend--to participate in a safari and 
then had to stand here and listen to a woman say, ``We don't 
have treatment.'' Obviously, there's a whole bunch of 
logistical issues that would disable her from getting 
treatment. But it's inexcusable that there's no treatment 
because of lack of money.
    I'd like to applaud my former boss, Secretary Thompson, for 
directing his Special Assistant for International Affairs to 
try to get a handle on this.
    Senator Coburn. Let me get you to summarize, if you will.
    Mr. Evertz. Yes, sir. It looks like we didn't, quite 
frankly. But they tried. Dr. Bill Steiger, who is that Special 
Assistant, put an end, basically, to business class travel, 
which was something that Secretary Thompson didn't appreciate 
when he started traveling so much, but nonetheless sat in the 
back of the plane while, again, individuals from NGOs that 
we're funding sat in the front of the plane.
    Finally, and I will conclude now with a little anecdote, 
something that's also not captured, I don't think, in any of 
the numbers that we're talking about today is attendance at 
meetings of the Global Fund to Fight AIDS, Tuberculosis and 
Malaria, and other such multinational organizations. The United 
States, as are all delegations, allowed to send 10 individuals 
to these meetings, which are held quarterly.
    I witnessed the difficulty in paring down the list to 10. 
And as a good friend of mine, and someone who's still with the 
government so I'm not going to single her out for fear of 
reprisal, but suggested, ``So we spend all this money to send 
government officials to Global Fund board meetings to make sure 
the Global Fund doesn't waste our money.'' And the answer is 
yes, because some of those meetings are in very nice places.
    Thank you, sir. I welcome your questions.
    Senator Coburn. Just a few questions for you. In terms of 
abstracts of scientific papers, one of the things that we're 
going to hear is that NIH needs to travel and needs to be 
there. And there certainly is some validity to that.
    On most of these conferences, aren't the abstracts of the 
papers that are going to be presented available prior to the 
conference?
    Mr. Evertz. Yes, sir. As I suggest in my written testimony, 
when I mentioned that I never attended the International AIDS 
Conference, my staff and I, however, did access transcripts, 
manuscripts, and materials that you reference so that we could 
do our job.
    And quite frankly, it's a lot easier to do that sometimes 
in the office setting than it is when there are, as you 
referred in your statement to, temptations to skip. We all were 
tempted to skip, and I will tell you right now that I did--not 
often, but did. It's quite easy.
    Senator Coburn. You indicated there were numerous 
conferences on the same topic throughout the year attended by 
the same people, in your written testimony. From your 
experience, are multiple conferences useful to fostering new 
ideas and solutions, or a misuse of funds and employee time 
that could be better spent?
    Mr. Evertz. Well, I'm going to answer cautiously. I'm not 
going to answer just flat-out yes because I think that there 
are some conferences where there are opportunities that could 
not be gained otherwise.
    But there is a conference circuit, sir. And I refer to this 
in my written testimony as a set, if you will, of individuals 
that you do see in Geneva or Doha or Siemreab, Cambodia. And 
there's an expectation--and I will attest to it--an expectation 
that certain people be there.
    Guess what happens when President Bush's AIDS czar doesn't 
show up at something? Well, that's outrageous. Well, criticize 
me for what I did or didn't do in that position, but don't 
criticize me for not being at conferences because in my 
estimation, there would have been no added value, or value 
added, if I attended everything on the circuit. I wouldn't have 
done anything in Washington. We would not have passed the 
PEPFAR initiative.
    Senator Coburn. One final question. If you were to look at 
your time in HHS and the White House and look at the number of 
conferences, what percentage of those could have been done 
through teleconferencing or, in your opinion, were absolutely 
necessary?
    Mr. Evertz. I would say--given again the technology that 
you mentioned, I would say at least 75 percent of those 
conferences, at the very least, could have their attendance 
pared way down. I mean, there is a value in face-to-face, and 
I'm sure that the airline industry would quarrel with some of 
the technologies that we're talking about because there is a 
value in being face-to-face and there is valuable hallway 
discussions, as it's referred to.
    But let me kind of qualify my answer again. I would say of 
all those conferences that--and I've got a calendar here for 
2006. There's one every month somewhere, Orlando or Montreal. 
Oh, here's three: Jacksonville, Quebec, and Arlington. I'm not 
going to the Arlington one. It's right across the river. 
Dallas, Miami, Amsterdam, or Hollywood, Florida. That's cool. 
Versailles.
    I don't think--and I don't see how anyone ever unpacks if 
they attend all of these things. And the answer is, maybe they 
don't. Pardon the cynicism. But there would be ways. I mean, 
for instance, the conference in Versailles is the 22nd 
Conference on Sexually Transmitted Infections. I would be 
willing to bet that you in your practice, sir, could access all 
of the information that would be discussed at this conference 
without traveling to Versailles, and better serving your 
patients in Oklahoma.
    Senator Coburn. Senator Carper.
    Senator Carper. Thank you so much for being with us today 
and for your presentation and responding to our questions.
    I just want to return to something you said. There is value 
in some cases to being there, not just to be a participant in 
the formal program of a conference, but to have the opportunity 
to meet some people, to talk to them, maybe outside of the 
conference, maybe over breakfast or dinner, and to create--
actually to form some relationships that can later on pay real 
dividends for the people that we're trying to serve. So there's 
value that sometimes is a bit hard to measure. But I agree with 
what you said there.
    I just have one question, and it's a question I ask from 
time to time of folks that appear before us. Knowing what you 
know, having seen what you've seen in this regard, what advice 
would you have to us as to how to reduce the incidence of 
travel that's not well thought out, and frankly, not especially 
fruitful?
    Mr. Evertz. That's a good question, Senator. And it sounds 
like DOE, the Department of Energy, has been doing some of 
that. I suggested to you some of that which was implemented at 
HHS. And I would argue those numbers would look worse, perhaps, 
if what Secretary Thompson initiated was not--did not happen, 
for instance, the banning of business class travel.
    The other thing or aspect that was changed is tacking on a 
personal vacation to official government travel. And this was 
disallowed. And actually, it's my understanding that this was 
disallowed even electronically at HHS by looking at someone's 
travel orders and determining if in fact a conference ends on 
such-and-such a date and their return date is 5 days later, 
guess what? The conference was in Cabo and they're not 
returning for 5 days? Again, I say cynically, but guess what 
they're doing? And you and I have paid for their flight there 
and tacked on a vacation.
    So practically speaking, get rid of that kind of stuff. 
Practically speaking, you get rid of business class travel and 
you're talking thousands of dollars per ticket. You referenced 
cost savings in the airline industry.
    The other thing that I would suggest is a more robust, 
rationed process of identifying the rationale for attending. I 
suggested to you that 10 individuals from the U.S. Government 
attend the Global Fund board meeting every time the board 
meeting is held, and that it's usually difficult to limit it to 
10.
    Now, I work closely with those individuals, and so, 
Senator, I thank you for suggesting that I'm courageous in 
speaking before you because I wouldn't want to tell you who of 
the 10 I wouldn't want attending. But guess what? Ten people do 
not need to attend the Global Fund board meeting.
    But there's no process by which the rationale for travel is 
determined, at least in my experience at HHS. Now, at the White 
House, which has no money, I didn't travel much at all.
    Senator Carper. Again, my question is: What advice would 
you have for us?
    Mr. Evertz. The advice--yes.
    Senator Carper. Concrete things that we can do to reduce 
the amount of travel that's just poorly thought through.
    Mr. Evertz. Well, I think one thing is to have the agencies 
do what HHS has tried, which is to limit number of attendees. I 
think that's a little simplistic because that doesn't entirely 
get at the issue of cost. But really, the agencies need to be 
held accountable for these numbers, and those responsible for 
signing off on travel need to be held accountable if the 
numbers are increasing at a time of budget deficits.
    Senator Carper. OK. The other thing I would add to that, 
and I thank you for that response, Mr. Evertz, I would say to 
my staff, when you're thinking of doing something and the 
question of cost is a consideration, you're not sure that it's 
the right expenditure that actually helps us do our job better 
and to serve better, just imagine a newspaper article--and we 
only have one statewide newspaper in Delaware--just imagine a 
story on the front page of the newspaper above the fold that 
talks about the particular event we're going to travel to or 
the meeting or convention we're going to participate in.
    And if it meets that test and you feel like you'd be happy 
to see that story, then let's go ahead and do it. If not, let's 
find another way to skin that cat. Thank you.
    Chairman Coburn. Mr. Evertz, thank you very much.
    We'll start with our second panel now, and I will introduce 
them.
    Michael Ryan is the Deputy Chief Financial Officer of the 
EPA, Environmental Protection Agency. He's served as the EPA's 
Deputy CFO since 2000. He is responsible for managing strategic 
planning, budgeting, financial management, performance 
measurement, analysis, and accountability functions. He 
previously served as the agency's controller, and has held 
positions in the State Department and Department of Defense.
    James Martin, Assistant Chief Financial Officer for 
Financial Management, Department of Housing and Urban 
Development. Mr. Martin joined the HUD CFO office in 2000. He 
works on eliminating the Department's high risk and material 
weakness issues, improving the content of the annual 
performance and accountability report, the PART report, and he 
coordinates HUD's efforts to implement President Bush's 
management agenda. Mr. Martin has served in a variety of 
capacities at HUD since joining the Department in 1983.
    Sid Kaplan, Deputy Assistant Secretary for Strategic 
Performance and Planning, Bureau of Resource Management, at the 
Department of State. Mr. Kaplan serves as the Acting Assistant 
Secretary for Resource Management and Chief Financial Officer. 
He's a member of the Senior Foreign Service and has held 
numerous positions within the State Department. He's the former 
Managing Director of the International Financial Services 
Directorate.
    Charles Johnson, Assistant Secretary of the Budget in the 
Department of Health and Human Services. He is the Assistant 
Secretary for Budget, Technology, and Finance at HHS. He 
previously served as the Chief Financial Officer of the EPA. 
He's the former President of the Huntsman Cancer Foundation, 
and he has held a number of positions in Utah State government. 
He also has considerable experience in the private sector.
    Thank you all for being here today. You each will be 
recognized. We won't stay tight within the 5-minute rule, and 
your entire statement will be made a part of the record.
    And Mr. Johnson, I'll recognize you first.

   TESTIMONY OF CHARLES JOHNSON,\1\ ASSISTANT SECRETARY FOR 
 BUDGET, TECHNOLOGY AND FINANCE, U.S. DEPARTMENT OF HEALTH AND 
                         HUMAN SERVICES

    Mr. Johnson. Thank you. Thank you, Chairman Coburn, Senator 
Carper. Thank you for the opportunity to appear before you 
today on the topic of Federal agencies and conference spending.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Johnson with an attachment 
appears in the Appendix on page 37.
---------------------------------------------------------------------------
    HHS is the principal Federal agency responsible for 
protecting the health of all Americans and providing essential 
human services, especially for those who are least able to help 
themselves. We have more than 300 grant programs. We are the 
Nation's largest health insurer and the largest government 
grant-making agency.
    I'm not here to defend any specific conferences, but I can 
tell you that good communication to disseminate and share 
information is a key to our success. Appropriate conferences 
play a major role in facilitating this communication both with 
grantees and between grantees on policies, goals, best 
practices, and new discoveries. HHS's participation in 
conferences can be a cost-efficient way for the Department to 
communicate with as many stakeholders as it deals with.
    Last year, in response to your request, Mr. Chairman, HHS 
compiled information on the total amount spent on conference 
activities in fiscal years 2000 through 2004, and provided you 
an estimate of the expenditures for 2005. We have now updated 
our 2005 information.
    This updated information on conference spending shows that 
we are up about a third from fiscal 2000, but we have been 
relatively constant since 2003 and actually decreased our 
conference spending from fiscal 2004 to 2005. Conference 
spending increases are in two major agencies, National 
Institutes of Health and Administration for Children and 
Families.
    Sharing scientific information, as has been pointed out, is 
an important form of leveraging research activities and 
hopefully results in a decrease in those research expenditures. 
ACF, the Administration for Children and Families, has had a 
lot of new programs over the last 5 years. But despite the fact 
that they've had these programs, in the year 2004, they had a 
higher expenditure than in 2005.
    I think this brings out an important management principle. 
That is as follows. With launching a new program, we may incur 
startup costs. However, when information has been shared with 
the relevant parties, a reduction in conference spending will 
be expected. That's an important stewardship matter, and I 
think the ACF has followed that.
    Having said that, I agree that additional oversight can 
improve our stewardship. As I reviewed the current policies, I 
felt that we must tighten our conference policies in two areas: 
First, in the selection of the conferences, and the programs 
and policies being presented at those conferences; and second, 
in the financial areas surrounding conferences.
    To that end, in coordination with the Assistant Secretary 
for Administration and Management, we have issued a memorandum 
to all HHS operating division heads that strengthen the 
Department's current policy on conferences. This memorandum 
places additional responsibility on operating division heads in 
determining content and sponsorship of conferences and in 
controlling costs.
    It emphasizes the need to more actively engage with 
grantees to assure that they are aware of our policies and 
procedures. It adds additional approvals on travel. In summary, 
we have strengthened our oversight on conferences, which in 
turn will help us contain costs.
    As evidenced by our most recent clean audit, the seventh in 
a row, HHS has a commitment to strong and transparent financial 
management. We are continuously monitoring our internal 
controls and strengthening our Departmental policies. I 
personally have a strong belief in accountability and 
transparency, and pledge to you that we will do better.
    Mr. Chairman, Senator Carper, this concludes my testimony. 
But I stand ready to answer any questions that you or any other 
Members of the Committee may have on this topic.
    Chairman Coburn. Thank you, Mr. Johnson. Mr. Kaplan.

  TESTIMONY OF SID KAPLAN,\1\ ACTING CHIEF FINANCIAL OFFICER, 
                    U.S. DEPARTMENT OF STATE

    Mr. Kaplan. Chairman Coburn and Senator Carper, thank you 
for the invitation to testify today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kaplan appears in the Appendix on 
page 48.
---------------------------------------------------------------------------
    As you well know, the conduct of diplomacy frequently 
requires face-to-face interactions, venues for the exchange of 
ideas, and meetings that foster personal relationships which 
are critical to the success of our mission.
    Conferences are an integral means by which the Department 
of State conducts our Nation's international affairs. The 
Department conducts diplomatic relations with 188 countries 
through over 260 posts around the world, and participation in 
conferences is an effective means to promote advancement of 
issues across a wide array of operational and policy areas.
    For some international organizations, conferences are the 
primary means by which business is conducted. The United States 
also advances and protects hemispheric interests through 
participation in the meetings of the Organization of American 
States and related organizations. The United States realizes 
similar goals reflecting key regional relationships through 
participation in meetings of the Asia Pacific Economic 
Cooperation Forum, or APEC, the North Atlantic Treaty 
Organization, or NATO, the United Nations regional commissions, 
and other signatories to major treaties.
    Active State Department participation in international 
conferences ensures that the United States maintains our 
influence, and promotes and protects key U.S. interests in the 
formulation of policy, the management of the Department's 
operations, and the deliberations of multilateral international 
organizations in which the United States has membership.
    The Department's participation in conferences is often 
essential to achieving a desired outcome, and cost of 
attendance is justified by what was or was not accomplished due 
to U.S. engagement. For example, failure to attend a conference 
that results in action not supported by our policies could 
require a greater expenditure of resources to address the 
action in retrospect than it would have cost to participate in 
the conference.
    The Department has taken steps to institute controls over 
conference participation and to stem the increase in conference 
costs. The Department is also continuously exploring and making 
use of ways to leverage technology and resources so that the 
Department's participation in meaningful conferences is 
facilitated in the most cost-effective way possible.
    The funding used to support conferences is managed within 
each of the Department's bureaus. Therefore, bureaus and, 
consequently, U.S. missions overseas must prioritize funding 
for conferences against other competing requirements.
    In 2004, the State Department instituted a policy requiring 
advance approval from the office of the Under Secretary for 
Management in order to attend or host conferences. Under the 
policy, requests to host or hold conferences, workshops, or 
other meetings to which travel is required and where 25 or more 
Department personnel will participate must be submitted 120 
days in advance. The request must be justified by demonstrating 
the benefit to the Department, the outcome or results expected, 
security risks, cost, and how the conference advances the 
Department's strategic priorities.
    The Department is also using technology to increase 
efficiency and cut conference costs. The use of digital video 
conferencing, or DVC, is on the rise. As an example, rather 
than attending regional management or budget conferences, I and 
in most cases a small panel of management colleagues have 
frequently opted to deliver our presentations using DVC.
    Also, while not conferences per se, the Bureau of Resource 
Management regularly uses DVC to conduct our mission 
performance plan reviews with embassy teams, substantially 
reducing international travel and costs. In short, as DVC 
technology has improved, this practice is becoming more 
prevalent, and I expect it to only grow in the future, which 
will contribute to greater cost-effectiveness.
    The conference spending data reported covers a 5-year 
period. The report includes information on conferences with a 
variety of purposes, including policy issues related to 
Afghanistan, Iraq, the Global War on Terror, and the fight 
against AIDS, as well as management and professional 
development conferences. Most recently, conference spending has 
decreased from $30.9 million in fiscal year 2004 to $26.5 
million in fiscal year 2005, primarily due to non-recurring 
conferences such as the hosting of the OAS General Assembly and 
the increased use of technology.
    As the Acting Chief Financial Officer, I can assure you 
that the Department will continue to avoid unnecessary 
conference expenditures and, where appropriate, to vigorously 
pursue more cost-effective methods of participating.
    Thank you for this opportunity to speak before the 
Subcommittee, and I look forward to answering any questions 
that you might have.
    Chairman Coburn. Mr. Kaplan, thank you. Mr. Martin.

    TESTIMONY OF JAMES M. MARTIN,\1\ ACTING CHIEF FINANCIAL 
   OFFICER, U.S. DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Mr. Martin. Chairman Coburn, Ranking Member Carper, thank 
you for the opportunity to testify before you today on the 
topic of Federal agencies and conference spending. My testimony 
focuses on the nature, extent, and benefits of conference 
spending at the U.S. Department of Housing and Urban 
Development.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Martin with an attachment appears 
in the Appendix on page 53.
---------------------------------------------------------------------------
    Given the current Federal budget climate, I agree with you 
both that it is more important than ever that every Federal 
dollar be properly spent with a clear mission-related purpose 
and benefit. HUD sponsors, cosponsors, or approves staff to 
participate in conferences for a variety of mission-related 
purposes.
    HUD's significant and diverse program activities serve 
millions of American households and most communities. These 
programs are delivered through thousands of third party program 
administrators, including units of State and local government, 
public housing agencies, private mortgage lenders, nonprofit 
and for-profit housing sponsors, developers, and managers, and 
various faith-based and community-based service organizations.
    Effective communication of program goals and requirements 
to program beneficiaries and our third party program 
administrators is a critical component of HUD's program control 
environment. Such communications are in keeping with the 
Government Accountability Office's standards for effective 
internal control in the Federal Government.
    Most of HUD's third party program administrators and 
program beneficiaries are represented by national and/or local 
associations or interest groups. HUD's participation in 
conferences sponsored by or for these associations or interest 
groups is often a cost-efficient and effective way for the 
Department to communicate with its many program stakeholders.
    Another factor in an effective system of internal control 
is management's commitment to competence in its own workforce. 
Some conference participation is to enhance the knowledge, 
skills, and abilities of HUD staff to better enable them to 
perform their jobs and to support HUD's mission.
    Mr. Chairman, in response to your request, HUD compiled 
information on the total amount of conference spending in 
fiscal years 2001 through 2005. Our queries for that period 
indicate that HUD's conference spending ranged from a low of 
$3.2 million in 2001 to a high of $13.9 million in fiscal year 
2005.
    In analyzing that spending trend over the 5-year period, 
2001 was found to be an uncharacteristically low period for 
conference spending due to the change in Administrations and 
leadership during that period. The increased conference 
spending between fiscal years 2002 and 2005 was largely due to 
a greater focus on promoting the Department's revised strategic 
coals and program changes designed to increase performance 
results.
    HUD's mission is to increase home ownership, support 
community development, and increase access to affordable 
housing free from discrimination. The list of 989 conferences 
supported by HUD in fiscal year 2005 conforms to HUD's mission 
and goals. Although there is no specific limit on how much HUD 
can spend on conference support or participation, spending is 
limited by HUD's normal budget constraints.
    Nearly 31 percent of HUD's total fiscal year 2005 
conference spending was from the public housing technical 
assistance program funds that were appropriated for such 
purposes. In the case of program technical assistance funds, 
HUD is required to submit an annual spending plan for 
Congressional approval before these funds can be used for 
conferences or other planned purposes.
    Conference activities not funded by program technical 
assistance funds must be funded out of HUD's limited salaries 
and expense fund. The S&E fund has little discretionary funding 
available for conference participation after covering the cost 
of HUD's salaries and other normal operating expenses. The 
total $13.9 million spent on conferences in fiscal year 2005 
represented a very small percentage of HUD's total enacted 
budget of $33.7 billion that year.
    Supervisory approval of conference participation is 
required in all cases, along with separate processing and 
approval of any associated funding required for travel expense, 
conference facility or equipment rental, or materials 
development, or printing costs associated with conference 
participation.
    My written testimony provides several examples where HUD's 
conference participation is believed to be a contributing 
factor to increasing program performance results. Those 
examples include HUD's efforts to increase home ownership, 
record home ownership levels today. And we particularly focus 
on minority home ownership. Minority home ownership is also at 
record levels.
    Our efforts to promote program participation or increase 
program participation by faith-based and community service 
organizations and to reduce improper rental housing assistance 
payments are all areas where we believe performance has 
improved as a result of our participation in conferences to 
communicate program requirements and goals with our program 
stakeholders.
    Mr. Chairman, I hope that I've been able to shed some light 
on the controlled nature of HUD's participation in conference 
activities and the benefits derived from those activities. That 
concludes my testimony, and I stand ready to answer any 
questions either of you may have. Thank you.
    Chairman Coburn. Thank you very much. Mr. Ryan.

   TESTIMONY OF MICHAEL W.S. RYAN,\1\ DEPUTY CHIEF FINANCIAL 
         OFFICER, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Ryan. Good afternoon, Chairman Coburn, Senator Carper. 
On behalf of the Environmental Protection Agency, I'd like to 
thank you and the Members of the Subcommittee for the 
opportunity to testify today on the subject Federal agencies 
and conference spending.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ryan appears with an attachment 
in the Appendix on page 60.
---------------------------------------------------------------------------
    EPA appreciates your interest in this topic. We share your 
concern for efficient, effective, and appropriate use of 
taxpayers' dollars, whether for conferences or for any other 
purpose.
    Conference must promote EPA's mission to promote human 
health and the environment. We carry out this mission through 
the work of some 17,500 employees located in Washington, DC, 10 
major regional offices, and other facilities across the 
country.
    Our work is organized in terms of five long-term strategic 
goals. These goals shape the way we plan, budget, and account 
for our work. We organize our budget in terms of results and 
annual goals that relate to these strategic goals.
    We also account for spending by these goals with reference 
to specific programs and projects that may or may not involve 
conferences. In this way, we aim to account for spending in 
terms of the results of our work.
    Our cost accounting system follows the structure of our 
strategic and annual goals. And for this reason, we had to do 
further analysis to produce the kind of information you 
requested and to identify trends in spending on conferences. 
Based on analysis of the detailed data submitted to the 
Subcommittee, I would estimate that EPA's spending on formal 
conferences is in the range of $16 to $19 million annually.
    EPA has broad authority under civil statutes to conduct 
formal conferences to deliver useful environmental information 
to the public and to other Federal agencies. These statutes 
include the Clean Air Act, the Clean Water Act, Solid Waste 
Disposal Act, National Environmental Policy Act, the Superfund 
and Brownfields statutes, and the Government Employees Training 
Act.
    A number of EPA programs rely on close coordination with 
community groups, intergovernmental organizations, and members 
of the regulated community. EPA generally supports conferences 
that bring together different constituencies to promote 
collaboration and partnerships for the Nation's environmental 
programs.
    Many EPA conferences are designed to inform a non-Federal 
audience about important developments in environmental policy. 
Other conferences promote technology transfer, research, 
cooperation between stakeholders with different perspectives, 
voluntary actions, and other non-regulatory approaches to 
protecting the environment and public health.
    Decisions on conference attendance and support are not made 
centrally for the agency. Generally, these decisions are made 
at the appropriate management level within individual program 
and regional offices. For example, Assistant Administrators or 
Regional Administrators may make decisions on whether to hold 
conferences on mission-related topics. Individuals' attendance 
must be approved by their supervisors.
    Mr. Chairman and Members of the Subcommittee, in the 
current budget climate, it is incumbent on all of us to take a 
hard look at spending to identify greater efficiencies, reduce 
costs, and produce meaningful results. We get better results 
when our work brings together the perspectives of many groups 
that make up the American community.
    Congress has recognized this by creating laws that provide 
for conferences to support coordination and information 
sharing. At the same time, we also need to be careful stewards 
to ensure that costs for a conference are appropriate and 
contained.
    I would like to thank you for this opportunity to examine 
how we manage conference spending, and to make sure that we are 
using these resources for the greatest benefit. And if I can 
depart from my text for a moment, Mr. Chairman, I'd like to 
thank you also for your statement in which you declared the 
intention to help us work on this issue. And I hope in that 
spirit we can enter into this conversation.
    And that concludes my oral testimony, and I would be 
pleased to answer any of your questions.
    Chairman Coburn. Well, thank each of you. I have a few 
questions just to kind of get down to some detail
    First, Mr. Martin, in 2001 you all had a $3.2 million 
expenditure for conferences. And I think your statement was 
that's because of a change in administration. It leads me to 
ask: Did HUD carry out its responsibilities that year?
    Mr. Martin. Absolutely.
    Senator Coburn. But they did it with $3.2 million worth of 
conference spending, and yet they carried out their 
responsibilities? So it begs the further question, is if in 
2001 they could carry out their responsibilities with $3.2 
million, why are we at $13.9 million now?
    Mr. Martin. I think my statement was that during that 
change in administration and leadership, the following year 
there was a focus on revised strategic goals, increased 
emphasis on home ownership, increasing faith-based and 
community organization participation in our programs, and just 
a new direction.
    It just was a lull period in 2001 compared to prior 
periods.
    Senator Coburn. It's true you all are having trouble with 
improper payments because so much of what you do goes through 
to other agencies. One of the things we've been working on is 
the Improper Payments Act, and I know you all are having 
trouble getting your hands around that. And I'm going to give 
you all deference to try to do that this year.
    But the fact is, as an agency, you don't know what you're 
improperly paying for. How do you know that the expenditures 
for travel and conferencing accurately reflects the needs of 
the agency?
    Mr. Martin. And that's all budgeted for and planned within 
the Department, and our execution of our salaries and expense 
fund. And clearly, one of the goals that was focused on in 2002 
was the reduction of improper payments.
    And that required us to issue updated and approved program 
guidance and disseminate that guidance to our program 
administrators, public housing authorities, and private owners, 
to provide training to their staff and our staff on that new 
guidance. Those were all contributing factors to reducing those 
improper payment levels over that period of time.
    Senator Coburn. But you all are out of compliance right now 
with improper payments, right, under the law?
    Mr. Martin. No. We believe we're in full compliance with 
IPIA.
    Senator Coburn. We believe you're not. And we'll have that 
discussion at a later time.
    Mr. Martin. Right. We owe you a response on February 14. 
Yes.
    Senator Coburn. OK. I also would note that the Senate is on 
record for limiting your conference numbers, an amendment that 
I offered when I saw it. And it was stripped in conference. But 
nevertheless, the Senate is on record to try to limit that. The 
whole goal was to raise the awareness--it wasn't to tell you 
how to run your organization. It was to raise the awareness 
that this is going to a faster level.
    And I'm going to ask each of you this: What percentage of 
the conferences that you're doing now are teleconferences or 
digital video conferencing? And what percentage that are 
planned for the future could be done that way? And then the 
third part of the question: Do you have a line item budgeted in 
your total budget for conferences and travel related to those 
conferences?
    Mr. Martin, you can answer first, and then the others can 
answer.
    Mr. Martin. OK. Our use of satellite broadcasts and 
webcasts is on the rise. The preponderance of our internal 
staff training and information dissemination is all done 
through satellite broadcasts and webcasts. And we're using it 
more frequently to communicate with our program stakeholders 
externally. That's definitely on the rise.
    HUD has a satellite broadcast center in its headquarters. 
We have downlink capability to all 86 HUD offices. We recently 
expanded what we call HUD TV to our public housing authorities, 
which administer the preponderance of our program dollars. So 
that's been a great benefit to provide training and information 
to them through those means.
    So it's definitely on the rise. We do not have a separate 
line item budget for it. I think it's probably a good idea for 
us to try to provide that kind of focus and oversight on it, as 
you suggest, going forward.
    Senator Coburn. OK. Do you actually have a budget that 
says, here's how much we're going to spend?
    Mr. Martin. It's somewhat limited by--the services are 
largely contracted. The satellite broadcast center has----
    Senator Coburn. No, I'm talking about for overall the 
conferences. In other words, how do lower level managers make a 
decision about which conference is most effective for us, if 
we've got all these conferences and we don't have a fixed 
budget? How do they make a decision to prioritize those?
    In other words, if they're just saying, this can come out 
of our fund and we think this is fine, we'll use it for budget 
rather than having a fixed amount for conferences and travel? 
There is not a fixed amount for conference and travel in HUD. 
Is that what you're telling me?
    Mr. Martin. Not specifically, no. Just a general budget 
constraint limit.
    Senator Coburn. OK. As a financial manager, do you not see 
a problem with that, that you won't force good decisionmaking 
unless you have a budget line item which you're addressing up 
against?
    Mr. Martin. There's a ``general other services'' line item 
which forces them to make decisions within that limited funding 
for that category of expenses. And that's competing with staff 
training and contract services as well that are in that object 
class. But it's not specifically for conferences.
    Senator Coburn. OK. Mr. Johnson.
    Mr. Johnson. With respect to technology, I can tell you 
that we're using technology a great deal within the 
organization. But the extent of our use with conferences and 
with grantees, I don't have a feel for that.
    I can tell you that with the way we do it internally, there 
is a--you put people in two categories. The need to go to a 
conference, or the need to know. And if you have a need to go, 
then your responsibility is then to disseminate the information 
among those who have a need to know.
    But I think we probably can use technology to a greater 
extent. But you do have a rather diverse group of grantees, and 
their ability to connect and to deal with us on that basis will 
also have some limitations. But I think it's an area that we 
have to do more on.
    With respect to a line item on travel and conferences, we 
don't have that. I think, from what I can gather, for the first 
time we have really focused in on the amount of spending on 
travel and conferences as a result of your request. I think we 
now have a base, and I think we have everyone's attention with 
that base, and I think we'll see some improvements just by the 
mere fact that we have that.
    We're installing a new accounting system. As we install 
that and get that throughout the system, throughout our entire 
Department, we definitely will have a line item and an ability 
to capture conferences and travel.
    Senator Coburn. Let me just follow up with you before I go 
to our other two witnesses. Congress recently spent $62.5 
million for a high-tech communications center at the CDC, $62.5 
million. Has the availability of this communications center had 
any impact on the number of CDC employees that travel to or the 
amount spent on conferences at CDC? What's the response to 
that?
    Mr. Johnson. Well, I can tell you, again, from an internal 
standpoint, we have a lot of meetings with CDC, and they're all 
through teleconference and video. I don't know the extent 
beyond that, the extent that it would be used with respect to 
conferences, other conferences outside. But certainly within, 
virtually every meeting that I go to that involves all the 
operating division heads, there is a video connection to CDC in 
Atlanta.
    Senator Coburn. Yes. All right. Mr. Kaplan.
    Mr. Kaplan. Yes, sir. Regarding technology, the State 
Department has a global reach, of course. And to the extent 
possible, we are focusing more on trying to use technology more 
and more.
    In some locations, however, technology is just not 
possible. It's very difficult. I was at a conference last year 
in Africa where we were trying to use video conferencing to 
pull people together, and it just didn't work. On the other 
hand, just a couple of weeks ago, rather than make a trip out 
to our Asia region to address a gathering there on budget 
issues, I was able to use video conferencing from back here in 
Washington, resulting in considerable savings not only in my 
time but in cost as well.
    So we are trying to use this technology more and more. Our 
bureaus and our embassies who make these decisions on funding 
for this equipment realize the value of it, and it is 
increasing.
    Regarding the line item, in our budget we do not have a 
separate line item. But within the limited discretionary 
funding within our embassies and our bureaus, there's a great 
deal of sensitivity on conferences and travel, and we're trying 
to limit it as much as possible and ensure that the right 
prioritization is taking place.
    Senator Coburn. I would note, it's ironic to me that HHS 
spends two and a half times what the State Department does on 
conferences and travel. Two and a half times at HHS--we've got 
to address that imbalance, think about that for a minute.
    Mr. Ryan.
    Mr. Ryan. Chairman Coburn, as far as the technology, I'm 
afraid I'm going to sound a lot like the others. We've had 
video conferencing capability at EPA, if my memory serves me, 
just for the last couple of years. We use it more and more for 
internal meetings so that people don't have to come in from San 
Francisco, and it's very useful.
    There are a number of conferences, if you look at our 
detail. Some of the conferences that we do I think you'd 
probably want us to continue to do because the citizens want to 
get a piece of us, frankly.
    Senator Coburn. Sure.
    Mr. Ryan. They want to see us in person and ask us some 
hard questions.
    I think in other areas--and I was talking to our guys in 
the research area, where you'd expect people to be high tech--I 
think that would be a great idea, to use that technology for 
that. And I would probably be looking into that more. I know we 
have some problems with bandwidth in some of the labs.
    Senator Coburn. We're going to try to fix that by 2009.
    Mr. Ryan. I'll be with you.
    Line item budget, no, we don't have it. To echo what I 
think Mr. Johnson said, I learned a lot more about what we do 
on conferences when you asked the question, frankly. We gather 
the information because it's decentralized. I looked at it and 
concluded, I think, some of the things you concluded. And I 
think we're going to be looking at that much harder.
    I think that having a line item per se possibly could 
produce counter-intuitive results. However, having to report 
the first bullet on your accountability chart of transparency, 
I think that goes a long way.
    If you simply flush out all these costs by putting a code 
in the accounting code, making people use it, and then report 
so that people at a level in the agency can actually see what's 
going on, I think that goes a long way to help control this. 
And would probably be more important than an item.
    Senator Coburn. Let me ask each of you, do you all have the 
authority within your organizations to essentially demand e-
conferencing or to hold accountable--in other words, to try to 
force this down the line? Is there any ability that you all 
have to say, this is how we're going to--other than to say, 
you're going to have to account. Here's a new number. You're 
going to have to put it in.
    But is there anything that you can do in your positions of 
authority as the financial managers of these organizations to 
force this down the line that would cause that, other than a 
budgeted line item or greater sunshine on it? Anybody want to 
answer?
    Mr. Ryan. Well, I'd start out by saying that to answer your 
question directly, I don't have the authority--the CFO doesn't 
have the authority to force it. That's not to mean that we 
can't--in order to, say, direct it. What we'd have to do is 
rely on persuasion and a bully pulpit kind of thing, and other 
tools that you have because you have the leverage of the 
budget. But I can't direct it at the current time, to answer 
your question.
    Senator Coburn. Any other comments on that?
    Mr. Kaplan. Sure. Personally, the CFO does not have the 
authority in the State Department, either. But that decision is 
made at the Under Secretary level. Of course we have a close 
working relationship, and the Under Secretary is always looking 
to make the most efficient, budget-wise decisions. So I think 
there's an influencing and a relationship there that we can 
work further in this direction.
    Senator Coburn. Mr. Johnson.
    Mr. Johnson. I can tell you as we discussed this issue with 
our operating division heads, and the Secretary was there, he 
indicated a very large interest in this area, and basically 
said that he would like to see transparency and he would like 
to see controls, and gave us basically the authority and the 
charce to work together to accomplish that. So I think having 
the Secretary in that camp is pretty good authority.
    Senator Coburn. I also would note in one of your comments, 
we've spent a ton of money wiring universities, colleges, 
libraries, and schools. And so you have stakeholders out there 
that we often assume don't have availability for some of this, 
but they really do. They have it at community centers and other 
areas throughout the country where we could utilize that.
    I want you to look at these two charts because one of the 
things that is growing is we pay per diems.\1\ And as I've 
talked to Federal employees, the best thing about a trip is you 
can make cash off of it. And I'm wondering if you have any 
comments to maybe change this policy to a cost-plus max and 
have them turn it in.
---------------------------------------------------------------------------
    \1\ The charts referred to appears in the Appendix on page 29 and 
30.
---------------------------------------------------------------------------
    I know you don't want to deal with the paperwork associated 
with travel vouchers and all that other. But when you pay 
somebody $390 a day per diem and they spend $200 or $250, and 
most of the conferences they go to have the food there, they're 
taking home $100 a day.
    And the same is true with Members of Congress when they 
travel. The American public needs to know that. What it ought 
to be is reasonable and customary expenses ought to be paid for 
rather than somebody gaming the system. Any comments on that? 
Think we ought to change that?
    It may not apply as much to the State Department because of 
where they travel, but certainly for the rest of it--and I've 
traveled once as a Congressman, and I was amazed that I turned 
in $1,600 back to the Treasury, whereas most people keep it.
    Mr. Ryan. Actually, I think that would be a great idea. And 
I think as the Federal Government goes to electronic travel 
vouchers, the paperwork burden will be reduced. If what I 
understand you're saying is simply allow for a cost, and 
basically everybody goes back to their computer, as they do 
now, and puts in what they spent, and has the vouchers and 
beyond that they don't get anything beyond that for 
reimbursement, I have no problem with that. That sounds like 
you're paying for the cost of the travel.
    Senator Coburn. Right. Any other comments on that?
    Mr. Kaplan. Sir, as you mentioned, the State Department is 
a little bit different. In many overseas locations where we 
are, it's often cost-effective to hold a conference rather than 
fund the air travel to bring people back. So we have a slightly 
different formula.
    Senator Coburn. Right. Yes. I agree with that.
    Mr. Kaplan. But I think the more scrutiny and the more 
light that is shed on this issue, working closely with GSA who 
does set the per diem rates, there might be some improvements 
that could be made in the system.
    Senator Coburn. All right. Mr. Ryan, I have one other 
question for you, and then I have one final question for all of 
you.
    From 2000 to 2004, your conference spending jumped 107 
percent, doubled. Last year, though, your agency spent less, 
actually brought it down several million dollars. The actual 
amount was--you brought it down $7 million, $6.5 million 
dollars.
    Mr. Ryan. Right.
    Senator Coburn. Did it compromise your mission?
    Mr. Ryan. No. Not at all. In fact, I have to confess to 
you, I think some of the difference in the 2 years is probably 
somewhat artificial by the simple fact that our most expensive 
conference, which is the Brownfields conference, which is about 
$3 million a year----
    Senator Coburn. Yes.
    Mr. Ryan. It's a fall issue. And it just happened to fall 
within two fiscal years. It was October, one year and 
September, the other. And that inflated it. And that's why in 
my oral statement I said, $16 and $19 million.
    But to answer your question without answering it exactly 
the way you asked it, if we were to reduce our conference 
spending, do I think we would not achieve our goals? No. I 
think I would echo what the administrator said when he talked 
about our budget, that we're stewards of the environment as 
well as stewards of the taxpayer dollar. And we could spend a 
lot less on conferences and still accomplish what we're doing.
    Senator Coburn. OK. One final question for all of you, and 
then I'll--actually, two final questions. I'll be more 
straightforward than that.
    If you're out on the street, not in the job you're in 
today, and somebody came up to you and said, the Federal 
Government over the last 5 years increased their conference 
spending 70 percent, what would you think about that? That's 13 
percent per year. What would you think about that? Mr. Johnson.
    Mr. Johnson. I think I talk with more people outside 
government than I talk within government, and I can tell you 
that they would be horrified. Any business, any large 
corporation, would say, that's not the way we've had to operate 
over the last 5 years. And so they would not take kindly to it.
    Senator Coburn. Mr. Kaplan? You all, by the way, have not 
increased it that much, but----
    Mr. Kaplan. I think people would be upset to hear that high 
percentage of increase, and would logically ask the question, 
could business be done differently? Could we look at the 
technology and newer tools and controls, as we ought to be 
continually looking at how to improve our business practices?
    Senator Coburn. Mr. Martin.
    Mr. Martin. Well, I think I'd want to know why did it go up 
and what did you get for it. But I know in HUD's case, looking 
back at 2001 when we were in that lull period between 
administrations, shortly after the new administration came in, 
there were a lot of change proposals that needed to be 
processed. And it was communicating those changes and to do 
things like reducing improper payments and things that had a 
benefit.
    Senator Coburn. Well, I said 70 percent. HUD went up 340 
percent.
    Mr. Martin. Right.
    Senator Coburn. So let's use 340 percent in your case. You 
don't think they'd question that?
    Mr. Martin. Absolutely question it. But again, it's 
relative. And again, going back to the question of why did it 
go up and what did you get for it, and----
    Senator Coburn. OK. Mr. Ryan.
    Mr. Ryan. Chairman Coburn, I think to answer your question, 
I had to think of what I would say to my mother-in-law about 
this. [Laughter.]
    And I would think that I wouldn't want to talk to her very 
long about because she pretty much would tell me, ``I think you 
boys better get this stuff under control.'' So I think, again, 
to echo Mr. Johnson's comment of horrified at the jump, that 
would be probably where I'd be and where most people would be.
    Senator Coburn. One final question, and then I'll introduce 
Senator Akaka. Welcome.
    Senator Akaka. Good to be here with you.
    Senator Coburn. You all have indicated a willingness, or at 
least a desire, to try to get a handle on this. And I'm 
extremely thankful to you.
    Would you each be willing to work with my office this year 
to write some parameters? Not specific rules; I don't want the 
Congress micro-managing you. I want us doing our proper job of 
oversight. But there are things that we can do to limit some of 
the excesses. And all I would ask is: Would you be willing to 
work with us to help give you more tools to help control some 
of these costs better?
    [Panelists nod affirmatively.]
    Senator Coburn. We're just about to finish up. Senator 
Akaka, I'm glad you came.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Well, thank you, Mr. Chairman. I want you to 
know I look forward to working with you. I enjoy working with 
you. And I must tell you that as Chairman of this Subcommittee, 
you have been--maybe this is too strong--that you have focused 
in dealing----
    Senator Coburn. I don't need any help in getting a bad 
reputation. [Laughter.]
    Senator Akaka [continuing]. With the problems that are in 
management. And I really commend the Chairman for that.
    I regret I was unable to be here earlier, but I was serving 
as a ranking member of the Armed Services readiness hearing on 
contracting in Iraq and the problems that we have there. 
However, I consider this hearing very important, and I 
appreciate the Chairman's interest in making sure that Federal 
agencies are spending funds wisely when it comes to sending 
Federal employees to conferences.
    I'm proud to represent the beautiful State of Hawaii, which 
is one of the Nation's premier conference and convention 
destinations. We in Hawaii are sometimes frustrated by the 
assumption that a Federal employee who attends a conference in 
Honolulu, for example, is wasting taxpayers' dollars.
    No Federal employee should be discouraged from 
participating in a conference as long as there is a legitimate 
reason to do it. I know our Chairman's focus on government 
efficiency is sincere, and I want to assure him that my 
constituents share that value, too.
    We cannot forget, however, that Hawaii, our 50th State, is 
home to nearly 25,000 Federal employees, 16,500 of whom are DOD 
civilian workers and about 45,000 active duty members of the 
Armed Services. Hawaii is headquarters for the U.S. Pacific 
Command, and serves as the operational heart of the world's 
largest naval command, the Pacific Fleet, whose reach extends 
all the way to Africa.
    PACCOM's operational responsibility covers 105 million 
square miles, more than 60 percent of the world's population, 
and $548 billion in U.S. trade. We don't want to unfairly 
refuse participation in a conference in Hawaii to any Federal 
employee.
    My constituents should not be denied access to the exchange 
of ideas and expertise of agencies such as HUD or HHS or EPA or 
State Department. There are unique issues that face the people 
of Hawaii, but by working with the Federal Government, we can 
fund solutions. Conferences, conventions, and forums all offer 
important venues for such critical personnel interactions.
    We in Hawaii have long understood the importance of 
visitors to our State and the State's economic vitality. Given 
the crucial standing that Hawaii and its capital, Honolulu, 
hold in this Nation, once again I strongly urge that the 
Federal employees neither be denied nor discouraged from 
attending conventions or conferences in the 50th State.
    And that's my statement that I'd like to put in the Record. 
Thank you, Mr. Chairman.
    [The prepared statement of Senator Akaka follows:]
                  PREPARED STATEMENT OF SENATOR AKAKA
    Thank you, Chairman Coburn. I consider this hearing very important, 
and I appreciate your interest in making sure that Federal agencies are 
spending funds wisely when it comes to sending Federal employees to 
conferences.
    I am proud to represent the beautiful State of Hawaii, which is one 
of the Nation's premier conference and convention destinations. We in 
Hawaii are sometimes frustrated by the assumption that a Federal 
employee who attends a conference in Honolulu--for example--is wasting 
taxpayer dollars. No Federal employee should be discouraged from 
participating in a conference as long as there is a legitimate reason 
to do so. I know our Chairman's focus on government efficiency is 
sincere, and I want to assure him that my constituents share that value 
too.
    We should never forget that Hawaii, our 50th State, is home to 
nearly 25,000 Federal employees--16,500 of whom are DOD civilian 
workers--as well as 45,000 active duty members of the Armed Services. 
Hawaii is headquarters to the U.S. Pacific Command (PACOM) and serves 
as the operational heart of the world's largest naval command--the 
Pacific Fleet--whose reach extends to Africa. PACOM's operational 
responsibility covers 105 million square miles--more than 60 percent of 
the world's population and $548 billion in U.S. trade.
    We don't want to unfairly refuse participation in a conference in 
Hawaii to any Federal employee. My constituents should not be denied 
access to the exchange of ideas and expertise of agencies such as the 
Departments of Health and Human Services, Housing and Urban 
Development, and State, as well the Environmental Protection Agency. 
There are unique issues that face the people of Hawaii, but by working 
with the Federal Government, we can find solutions. Conferences, 
conventions, and forums all offer important venues for such critical 
personal interactions.
    We in Hawaii have long understood the importance of visitors to our 
State's economic vitality. Given the crucial standing that Hawaii and 
its capitol--Honolulu--hold in this Nation, once again I strongly urge 
that Federal employees neither be denied nor discouraged from attending 
conventions or conferences in the 50th State.

    Senator Coburn. You've been heard, the junior Senator from 
Hawaii. We have heard you.
    Senator Akaka. Thank you.
    Senator Coburn. I would note for the record, however, the 
Defense Department's expenditures on travel and conferences has 
only risen 8 percent since 2002. They've been pretty good 
stewards in terms of the increases. And most of the conference 
that goes on in Hawaii are related to the Department of 
Defense. So they've been good.
    Your statement, however, does not reflect the fact that the 
HUD had a conference on Sacramento home ownership in Honolulu. 
The American people are going to ask a question about why do we 
do that. We're for Honolulu and Hawaii. I want to go there for 
a conference, too. I've just not been invited yet. And I may 
not be after one of these hearings. [Laughter.]
    Did you have a question for our guests?
    Senator Akaka. Yes. I have one question.
    Senator Coburn. Thank you.
    Senator Akaka. Mr. Ryan, you mentioned the use of shared 
costs for conferences. You also note that if EPA had greater 
authority to retain and use fees, that more costs could be 
offset. What authority does EPA need to do this?
    Mr. Ryan. This was an idea that if we had authority in law, 
which we don't have, to charge a fee and retain it to pay for a 
conference, the marketplace--for certain types of conferences. 
I'm not talking about a conference that we have with citizens 
about a Superfund site. No. I'm talking about a conference 
where we're giving information primarily to people who want to 
do business with the EPA or get grants.
    And we might soon find out--the marketplace might determine 
whether or not that was valuable information or not because if 
it wasn't, they wouldn't pay for it. And if they do pay for it, 
then the American taxpayer is not. And so that was a 
suggestion. We don't have the authority to do that now.
    Senator Coburn. That's a good idea.
    Senator Akaka. Thank you. Thank you, Mr. Chairman.
    Senator Coburn. Once again, let me thank each of you for 
coming. I know you've got tough jobs. And I appreciate your 
spending the time. Our grandchildren are worth us doing the 
right thing every time, and working hard to make sure not one 
penny is spent in an improper way.
    We will ask you for information in May. I hope that from 
October 1st to May, that you will have that available for us. 
We'll go back and look at--we're going to look at individual 
conferencing and the decisions that you're making. We're going 
to highlight ones that we think the American people might not 
agree with.
    And so I would just ask you to be discerning, and follow 
up--what I find is if we have a good discussion, we're going to 
learn about what you are doing more, which means we're going to 
be better stewards to get you what you need. And the American 
people can see it.
    And transparency and accountability are the things they're 
going to have to count on. And we've got about 6 years to turn 
things around before the real crunch hits us. And you all know 
what I'm talking about. And we need to be serious about doing 
it.
    We thank you for your attendance and your time. The hearing 
is adjourned.
    [Whereupon, at 4:26 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 27027.001

[GRAPHIC] [TIFF OMITTED] 27027.002

[GRAPHIC] [TIFF OMITTED] 27027.003

[GRAPHIC] [TIFF OMITTED] 27027.004

[GRAPHIC] [TIFF OMITTED] 27027.005

[GRAPHIC] [TIFF OMITTED] 27027.006

[GRAPHIC] [TIFF OMITTED] 27027.007

[GRAPHIC] [TIFF OMITTED] 27027.008

[GRAPHIC] [TIFF OMITTED] 27027.009

[GRAPHIC] [TIFF OMITTED] 27027.010

[GRAPHIC] [TIFF OMITTED] 27027.011

[GRAPHIC] [TIFF OMITTED] 27027.012

[GRAPHIC] [TIFF OMITTED] 27027.013

[GRAPHIC] [TIFF OMITTED] 27027.014

[GRAPHIC] [TIFF OMITTED] 27027.015

[GRAPHIC] [TIFF OMITTED] 27027.016

[GRAPHIC] [TIFF OMITTED] 27027.017

[GRAPHIC] [TIFF OMITTED] 27027.018

[GRAPHIC] [TIFF OMITTED] 27027.019

[GRAPHIC] [TIFF OMITTED] 27027.020

[GRAPHIC] [TIFF OMITTED] 27027.021

[GRAPHIC] [TIFF OMITTED] 27027.022

[GRAPHIC] [TIFF OMITTED] 27027.023

[GRAPHIC] [TIFF OMITTED] 27027.024

[GRAPHIC] [TIFF OMITTED] 27027.025

[GRAPHIC] [TIFF OMITTED] 27027.026

[GRAPHIC] [TIFF OMITTED] 27027.027

[GRAPHIC] [TIFF OMITTED] 27027.028

[GRAPHIC] [TIFF OMITTED] 27027.029

[GRAPHIC] [TIFF OMITTED] 27027.030

[GRAPHIC] [TIFF OMITTED] 27027.031

[GRAPHIC] [TIFF OMITTED] 27027.032

[GRAPHIC] [TIFF OMITTED] 27027.033

[GRAPHIC] [TIFF OMITTED] 27027.034

[GRAPHIC] [TIFF OMITTED] 27027.035

[GRAPHIC] [TIFF OMITTED] 27027.036

[GRAPHIC] [TIFF OMITTED] 27027.037

[GRAPHIC] [TIFF OMITTED] 27027.038

[GRAPHIC] [TIFF OMITTED] 27027.039

[GRAPHIC] [TIFF OMITTED] 27027.040

[GRAPHIC] [TIFF OMITTED] 27027.041

[GRAPHIC] [TIFF OMITTED] 27027.042

[GRAPHIC] [TIFF OMITTED] 27027.043

[GRAPHIC] [TIFF OMITTED] 27027.044

[GRAPHIC] [TIFF OMITTED] 27027.045

[GRAPHIC] [TIFF OMITTED] 27027.046

[GRAPHIC] [TIFF OMITTED] 27027.047

[GRAPHIC] [TIFF OMITTED] 27027.048

[GRAPHIC] [TIFF OMITTED] 27027.049

[GRAPHIC] [TIFF OMITTED] 27027.050

[GRAPHIC] [TIFF OMITTED] 27027.051

[GRAPHIC] [TIFF OMITTED] 27027.052

[GRAPHIC] [TIFF OMITTED] 27027.053

[GRAPHIC] [TIFF OMITTED] 27027.054

[GRAPHIC] [TIFF OMITTED] 27027.055

[GRAPHIC] [TIFF OMITTED] 27027.056

[GRAPHIC] [TIFF OMITTED] 27027.057

[GRAPHIC] [TIFF OMITTED] 27027.058

[GRAPHIC] [TIFF OMITTED] 27027.059

[GRAPHIC] [TIFF OMITTED] 27027.060

[GRAPHIC] [TIFF OMITTED] 27027.061

[GRAPHIC] [TIFF OMITTED] 27027.062

[GRAPHIC] [TIFF OMITTED] 27027.063

[GRAPHIC] [TIFF OMITTED] 27027.064

[GRAPHIC] [TIFF OMITTED] 27027.065

[GRAPHIC] [TIFF OMITTED] 27027.066

[GRAPHIC] [TIFF OMITTED] 27027.067

[GRAPHIC] [TIFF OMITTED] 27027.068

[GRAPHIC] [TIFF OMITTED] 27027.069

[GRAPHIC] [TIFF OMITTED] 27027.070

[GRAPHIC] [TIFF OMITTED] 27027.071

[GRAPHIC] [TIFF OMITTED] 27027.072

[GRAPHIC] [TIFF OMITTED] 27027.073

[GRAPHIC] [TIFF OMITTED] 27027.074

[GRAPHIC] [TIFF OMITTED] 27027.075

[GRAPHIC] [TIFF OMITTED] 27027.076

[GRAPHIC] [TIFF OMITTED] 27027.077

[GRAPHIC] [TIFF OMITTED] 27027.078

[GRAPHIC] [TIFF OMITTED] 27027.079

[GRAPHIC] [TIFF OMITTED] 27027.080

[GRAPHIC] [TIFF OMITTED] 27027.081

[GRAPHIC] [TIFF OMITTED] 27027.082

[GRAPHIC] [TIFF OMITTED] 27027.083

[GRAPHIC] [TIFF OMITTED] 27027.084

[GRAPHIC] [TIFF OMITTED] 27027.085

[GRAPHIC] [TIFF OMITTED] 27027.086

[GRAPHIC] [TIFF OMITTED] 27027.087

[GRAPHIC] [TIFF OMITTED] 27027.088

[GRAPHIC] [TIFF OMITTED] 27027.089

[GRAPHIC] [TIFF OMITTED] 27027.090

[GRAPHIC] [TIFF OMITTED] 27027.091

[GRAPHIC] [TIFF OMITTED] 27027.092

[GRAPHIC] [TIFF OMITTED] 27027.093

[GRAPHIC] [TIFF OMITTED] 27027.094

[GRAPHIC] [TIFF OMITTED] 27027.095

[GRAPHIC] [TIFF OMITTED] 27027.096

[GRAPHIC] [TIFF OMITTED] 27027.097

[GRAPHIC] [TIFF OMITTED] 27027.098

[GRAPHIC] [TIFF OMITTED] 27027.099

[GRAPHIC] [TIFF OMITTED] 27027.100

                                 <all>

</pre></body></html>
